November 24, 2020
BLD-037
UNITED STATES COURT OF APPEALS FOR THE THIRD CIRCUIT
C.A. No. 20-2995
UNITED STATES OF AMERICA
v.
AMIN A. RASHID, Appellant
(E.D. Pa. Crim. No. 2-08-cr-00493-001)
(Criminal treated as civil)
Present:

AMBRO, SHWARTZ, and PORTER, Circuit Judges
Submitted:
(1)

By the Clerk for a decision on the issuance of a certificate of
appealability; and

(2)

Appellant’s “Motion for Summary Reversal or, in the Alternative,
Issuance of a Certificate of Appealability”

in the above-captioned case.
Respectfully,

Clerk
ORDER
Appellant appeals front (1) the District Court’s August 3, 2020 order denying his
motion filed pursuant to Federal Rule of Civil Procedure 60(b)(4), and (2) the District
Court’s August 28, 2020 order denying his related motion,for reconsideration. Appellant
must obtain a certificate of appealability (“COA”) to proceed with this appeal. See 28
U.S.C. § 2253(c)(1)(B); United States v. Folk. 954 F.3d 597, 600-01 (3d Cir. 2020);
United States v. Edwards. 309 F.3d 110, 113 (3d Cir. 2002) (per curiam); see also Buck
v. Davis. 137 S. Ct. 759, 772 n.* (2017). But Appellant has not demonstrated that he is
entitled to a COA, for reasonable jurists would debate neither the District Court’s denial

of his Rule 60(b)(4) motion, see United Student Aid Funds. Inc, v. Espinosa, 559 U.S.
260, 270 (2010), nor its denial of his motion for reconsideration, see Lazaridis v.
Wehmer, 591 F.3d 666, 669 (3d Cir. 2010) (per curiam). Accordingly, we hereby deny
Appellant a COA. See Slack v. McDaniel, 529 U.S. 473, 484 (2000). To the extent that
Appellant asks us to summarily reverse the District Court’s rulings at issue here, that
request is denied.
By the Court,
s/ Thomas L. Ambro
Circuit Judge
Dated: December 8, 2020
Sb/cc: Amin A. Rashid
Vineet Gauri, Esq.
A True Copy: °

Patricia S. Dodszuweit, Clerk
Certified Order Issued in Lieu of Mandate

Case 2:08-cr-00493-CMR Document 556 Filed 08/03/20 Page 1 of 10

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF PENNSYLVANIA
UNITED STATES OF AMERICA
v.

CRIMINAL ACTION NO. 08-493

AMIN RASHID

ORDER
In May 2009, a Superseding Indictment “charged Rashid with ten counts of mail fraud,
eight counts of aggravated identity theft, and one count of passing an altered postal money
order.”1 As the Third Circuit explained:
The Superseding Indictment specifically alleged that Rashid defrauded clients of
his company, the Center for Constitutional and Criminal Justice, by accepting fees
to stop or reverse Sheriffs sales, or to recover proceeds from Sheriffs sales, while
in fact performing none of these services. Rashid also stole his clients’ identities.
City Line Abstract Company, a title insurance company used in connection with
the various Sheriffs sales, issued distribution policies that ultimately paid Rashid
over $600,000.2
“Following a jury trial, Rashid was convicted of nine counts of mail fraud arid eight counts of
aggravated identity theft” and this Court “sentenced Rashid in’July, 2013 to a total term of
imprisonment of 240 months, to be followed by 5 years of supervised release.”3
On June 20, 2016, the Court granted in part the government’s motion requiring Rashid to
seek leave of Court before filing motions in this case.4 The Court explained that:
Defendant has filed numerous motions seeking to re-litigate issues that have
repeatedly been decided by this Court and by the Third Circuit. In addition to the
multiple non-meritorious motions to recuse and the thirty post-trial motions filed
by Defendant, he has also filed fourteen non-meritorious motions to dismiss the
United States v. Rashid, 607 F. App’x 226, 227 (3d Cir. 2015).
2 Id.
3 Id.
4 Doc. No. 500.

Case 2:08-cr-00493-CMR Document 556 Filed 08/03/20 Page 2 ot 10

indictment against him as duplicitous, jurisdictionally defective, vindictive,
fraudulent, or in violation of the speedy trial act; eighteen motions for
reconsideration of various Court rulings; and fourteen non-meritorious appeals, as
well as a number of requests for rehearing and requests to recall the mandate. In
fact, with respect to a 1993 conviction, the Third Circuit found it “undeniable”
that Defendant’s “history of pro se challenges to his 1993 conviction is
vexatious.”5 Defendant has thus exhibited a “pattern of conduct from which [the
Court] can only conclude that a litigant is intentionally abusing the judicial
process and will continue to do so unless restrained.”6
Therefore, because Defendant had responded to the government’s motions and had “exhausted
all apparent avenues for relief in his criminal case except for his [then-] pending § 2255 Motion,”
the Court held that “Defendant should not be permitted to file any motions that attempt to re­
litigate issues that have been decided” except “as to Defendant’s pending § 2255 Motion and as
to [his] § 2241 action, which [was]... pending on appeal.”7
Two of Rashid’s arguments in his then-pending § 2255 motion were arguments which he
has raised in various forms time and time again and which have been rejected repeatedly by this
Court and the Third Circuit:8 1) that the affidavit submitted by Postal Inspector Mary Fitzpatrick
in support of a search warrant contained false statements; and 2) that the government withheld
evidence that a subpoena was served on Maurice Mander’s attorney rather than on Mander
personally.9 In 2017, the Court denied Rashid’s § 2255 motion without a hearing.10
On July 18, 2017, Rashid filed a Motion for Reconsideration challenging the Court’s
decision not to hold an evidentiary hearing and repeating the arguments that the Court rejected

5 Id. at 6-7 (quoting United States v. Rashid, 375 F. App’x 199, 201 (3d Cir. 2010)).
6 Id. (quoting Abdul-Akbar v. Watson, 901 F.2d 329, 333 (3d Cir. 1990)).
7 Id. at 7.
8 See, e.g., Doc. Nos. 393, 533, 544; United States v. Rashid, 593 F. App’x 132, 133 (3d Cir. 2014).
9 Doc. No. 497.
10 Doc. No. 533.

2

Case 2:08-cr-00493-CMR Document 556 Filed 08/03/20 Page 3 of 10

when denying his § 2255 motion.11 The Court denied the motion.12 Rashid then filed a “Motion
for Relief from Void Judgment Pursuant to Rule 60(b)(4), F.R. Civ. Proc. and Request for an
Evidentiary Hearing” that again raised the two issues related to the subpoena.13 On March 13,
2018, the Court denied the motion explaining that “the arguments raised in his current motion
have plainly been rejected by this Court and the Court of Appeals” and that “[ejven if the Court
were to reach the merits of Defendant’s Motion, Defendant has plainly failed to state any
grounds for relief cognizable under Rule 60(b)(4).”14 On June 19, 2018, the Court of Appeals
denied Rashid’s request for a certificate of appealability.15
On March 11, 2020, Rashid filed a Motion for Permission to File a Motion for Relief
from Judgment Pursuant to Rule 60(b)(4).16 On June 19, 2020, Rashid filed an Emergency
Motion for Bail Pending Final Disposition of Habeas Proceedings, Or, In The Alternative, A
Grant of Compassionate Release Pursuant to The First Step Act of 2018.17 The government has
filed responses opposing both motions and has also requested that “the Court’s June 20, 2016
Order should be extended to also bar any further litigation of Rashid’s Section 2255 and 2241
claims, both of which have been finally decided.”18

11 Doc. No. 535.
12 Doc. No. 536.
13 Doc. No. 537.
14 Doc. No. 544.
15 Doc. No. 545.
16 Doc. No. 547.
17 Doc. No. 550
18 Doc. No. 552.

3

Case 2:08-cr-00493-CMR Document 556 Filed 08/03/20 Page 5 of 10

because it is or may have been erroneous” and “a motion under Rule 60(b)(4) is not a substitute
for a timely appeal. ”24
Once again, Rashid has not stated grounds for relief cognizable under Rule 60(b)(4). A
“district court is required to hold an evidentiary hearing ‘unless the motion and files and records
of the case show conclusively that the movant is not entitled to relief.”’25 However, even if a
district court erroneously fails to hold an evidentiary hearing, that does not render a judgment
void; rather, the proper course is for the defendant to seek to appeal the decision. Here, the Third
Circuit denied Rashid’s request for a certificate of appealability and explained that “jurists of
reason could not debate that the District Court properly denied [Rashid’s]... motion for an
evidentiary hearing.”26 Rule 60(b)(4) does not provide a vehicle for Rashid to relitigate his
arguments.
Moreover, even assuming that a district court’s failure to hold an evidentiary hearing
could provide grounds for relief under Rule 60(b)(4), Rashid’s motion would still be denied. As
the Court has repeatedly explained, because Rashid’s § 2255 motion failed to state a viable
claim, the Court was not obligated to provide Rashid with an evidentiary hearing.27

n.

Emergency Motion for Bail Pending Final Disposition of Habeas
Proceedings, Or, In The Alternative, A Grant of Compassionate Release
Pursuant to The First Step Act of 2018.

Rashid’s motion seeks “release on bail because of the uncertainty as to when this Court
will act on his pending post-conviction motion and the certainty that the facts in this case
justifies Grant of a new trial,” combined with the risk that he faces from the COVID-19

24 United Student Aid Funds, Inc. v. Espinosa, 559 U.S. 260, 270 (2010) (cleaned up).
25 United States v. Booth, 432 F.3d 542, 545-46 (3d Cir. 2005) (quoting United States v. McCoy, 410 F.3d 124, 131
(3d Cir. 2005)).
26 Doc. No. 545.
27 See Rodriguez v. United States, 164 F. Supp. 3d 561, 566 (S.D.N.Y. 2016).

5

Case 2:08-cr-00493-CMR Document 556 Filed 08/03/20 Page 4 of 10

I.

Motion for Permission to File a Motion for Relief from Judgment Pursuant
to Rule 60(b)(4)

The basis for Rashid’s Rule 60(b)(4) motion is again the Court’s decision to deny his
§ 2255 motion without a hearing even though, according to Rashid, “[t]he sworn testimony
adduced by the Government from Postal Inspector Mary C. Fitzpatrick on June 2, 2011, that she
obtained ‘material evidence’ from Maurice Mander via the attached Grand Jury subpoena was
false. Moreover, the Government Attorney ... knew Inspector Fitzpatrick’s testimony was false
because ... he, in fact, faxed the Subpoena to Mander’s attorney.”19 The government argues that
“Rashid’s motion is simply his latest attempt to re-litigate claims that have been repeatedly
rejected by this Court and the Third Circuit Court of Appeals” and that “[o]nce more, Rashid’s
reliance on Rule 60(b)(4)... is also misplaced.”20
Rule 60(b)(4) provides that a court “may relieve a party or its legal representative from a
final judgment, order, or proceeding” if “the judgement is void. ”21 «A judgment may be void and
subject to relief under Rule 60(b)(4) in three circumstances: (1) the Court rendering the judgment
lacked subject matter jurisdiction, (2) the Court rendering the judgment lacked personal
jurisdiction over the parties, or (3) it entered ‘a decree which is not within the powers granted to
it by law. ”’22 « The third circumstance subjecting a judgment to attack under Rule 60(b)(4) has
been described as one in which the rendering court acted in a manner inconsistent with due
process of law.”23 The Supreme Court has explained that “[a] judgment is not void ... simply

19 Doc. No. 547 at 1-2.
20 Doc. No. 552.
21 Fed. R. Civ. P. 60(b)(4).
22 United States v. Williams, No. 172-27, 2015 WL 224381, at *3 (E.D. Pa. Jan. 16, 2015) (quoting Marshall v.
Board ofEduc., Bergenfield, N.J., 575 F.2d 417, 422 (3d Cir. 1978)).
23 Id. (internal quotation omitted).

4

Case 2:08-cr-00493-CMR Document 556 Filed 08/03/20 Page 6 of 10

pandemic.28 Alternatively, based on the COVID-19 pandemic, Rashid seeks compassionate
release pursuant to the First Step Act, 18 U.S.C. § 3582(c)(1)(A).
“[B]ail pending disposition of habeas corpus review is available ‘only when the petitioner
has raised substantial claims upon which he has a high probability of success or exceptional
circumstances exist which make a grant of bail necessary to make the habeas remedy
effective.’”29 Because, as explained above, Rashid’s Rule 60(b)(4) is meritless and will be
denied, Rashid’s motion for bail will also be denied.
Rashid also is not entitled to compassionate release. “A court generally may not correct
or modify a prison sentence once it has been imposed, unless permitted by statute or by Federal
Rule of Criminal Procedure 35.”30 One statute that permits such modifications is 18 U.S.C.
§ 3582 (c)(l)(A)(i), which, as amended by the First Step Act of 2018, allows “prisoners the right
to file their own motions for a sentence reduction if they first exhaust the statute’s procedures for
initially making a request to the warden to file a motion on their behalf.”31 The “exhaustion
requirement is met if the defendant establishes either (1) that the Bureau of Prisons denied his or
her request that it bring a compassionate-release motion and he or she fully exhausted all
administrative appeal rights with respect to that denial, or (2) that the warden of the facility took
no action on his or her request for the filing of a compassionate-release motion within 30 days of
receiving it.”32 The Third Circuit has held that the failure to comply with the First Step Act’s

28 Doc. No. 550 at 13.
29 Pelullo v. United States, 487 F. App’x 1, 3 (3d Cir. 2012) (quoting Landano v. Rafferty, 970 F.2d 1230,1239 (3d
Cir. 1992)).
30 United States v. Van Sickle, No. 18-250, 2020 WL 2219496, at *3 (W.D. Wash. May 7,2020) (citing United
States v. Penna, 315 F.3d 509, 511 (9th Cir. 2003)).
31 United States v. Hill, 19-38, 2020 WL 2542725, at *1 (D. Conn. May 19, 2020) (citing United States v. Almontes,
2020 WL 1812713, at *1 (D. Conn. April 9, 2020)).
32 United States v. Cassidy, No. 17-116S, 2020 WL 1969303, at *2 (W.D.N.Y. Apr. 24, 2020) (citing 18 U.S.C. §
3582 (c)(l)(A)(i)).

6

case 2:08-cr-00493-CMK Document 556 Filed U8/03/2U Page / or iu

exhaustion requirement “presents a glaring roadblock foreclosing compassionate release. ”33
“Once a defendant’s administrative remedies are exhausted, a court may grant compassionate
release based upon: consideration of the factors set forth in 18 U.S.C. § 3553(a); a finding that
‘extraordinary and compelling reasons warrant such a reduction’; and a determination that the
reduction is ‘consistent with applicable policy statements issued by the Sentencing
Commission.’”34
On October 24, 2019, Rashid requested compassionate release so that he could provide
care for his sister.35 On November 12, 2019, the warden denied his request.36 More than seven
months after his request was denied, Rashid fildd his motion for compassionate release
apparently based both on the need to care for his sister and the risk that he faces in prison from
the COVID-19 pandemic.
To the extent his motion is based on the COVID-19 pandemic, Rashid’s failure to
exhaust his administrative remedies does not allow the Court to consider his request. An inmate
cannot request compassionate release from the warden for one reason and then, months after it is
denied, file a motion in the district court based on a wholly different reason. Otherwise, an
inmate could completely circumvent Congress’s exhaustion requirement by, for example, filing a
frivolous request for release right after starting to serve their sentence; the warden’s denial of the
request would then provide the inmate with a “skip-the-exhaustion-requirement card” that would
\

allow the inmate to file a motion in the district court at any time and for any reason without
requesting that the warden bring a motion on their behalf. Because Rashid only requested release

33 United States v. Raia, 954 F.3d 594, 597 (3d Cir. 2020); see also United States v. Alam, 960 F.3d 831, 835-36
(6th Cir. 2020).
34 United States v. Bogdanoff, No. 12-0190-1, 2020 WL 2307315, at *3 (E.D. Pa. May 8, 2020).
35 Doc. No. 550 at 14-15.
36 See id. at 23.

7

zt.uo-u-uu^yj-i^ivirc

uuuumeni ooo

i-neu ua/u^5/zu rage a ot xu

from the warden to care for his sister, the Court cannot consider his health and the COVID-19
pandemic.37
To the extent that Rashid’s motion is based on the need to care for his sister, the motion
will be denied. Rashid argues that the First Step Act “does permit Compassionate Release to for
instance ‘care for siblings.’”38 However, the United States Sentencing Commission, to which
Congress has delegated the authority to define “extraordinary and compelling reasons,”39 has not
identified caring for a sibling as such a reason, and Rashid has not otherwise shown that release
is warranted in this case.40 Therefore, Rashid’s motion for compassionate release will be denied.

in.

Government’s Request to Extend June 2016 Order

The Court finds that in light of Rashid’s continued“pattem of conduct from which [the
Court] can only conclude that [he] is intentionally abusing the judicial process and will continue
to do so unless restrained,” and as his § 2255 motion has been finally decided, the Court will
grant the government’s request and extend the June 20, 2016 Order to any filings related to the
§ 2255 motion.41 The extension does not apply to a properly-exhausted motion for
compassionate release.
AND NOW, this 3rd day of August 2020, upon consideration of Defendant’s Motion for
Permission to File a Motion for Relief from Judgment Pursuant to Rule 60(b)(4) [Doc. No. 547] ,
the government’s Response [Doc. No. 552], Defendant’s Reply [Doc. No. 554], Defendant’s

37 The Court notes that this is not a situation where an inmate requested compassionate release based on their
medical condition and then filed a motion based on COVID-19 amplifying the risk that their medical condition
poses to their health.
38 Doc. No. 550 at 15.
3918U.S.C. §994(t).
40 U.S.S.G. § IB 1.13.
41 Abdul-Akbar, 901 F.2d at 333. Because the last time that Rashid filed a document in Case No. 15-cv-274, which is
the § 2241 action, was in 2016, the Court will not extend the Order to that action.

8

case 2:ub-cr-uu493-CMK Document bbb Hied Ub/U3/2U page a ot iu

from the warden to care for his sister, the Court cannot consider his health and the COVID-19
pandemic.37
To the extent that Rashid’s motion is based on the need to care for his sister, the motion
will be denied. Rashid argues that the First Step Act “does permit Compassionate Release to for
instance ‘care for siblings. ’”38 However, the United States Sentencing Commission, to which
Congress has delegated the authority to define “extraordinary and compelling reasons,”39 has not
identified caring for a sibling as such a reason, and Rashid has not otherwise shown that release
is warranted in this case.40 Therefore, Rashid’s motion for compassionate release will be denied.

in.

Government’s Request to Extend June 2016 Order

The Court finds that in light of Rashid’s continued “pattern of conduct from which [the
Court] can only conclude that [he] is intentionally abusing the judicial process and will continue
to do so unless restrained,” and as his § 2255 motion has been finally decided, the Court will
grant the government’s request and extend the June 20, 2016 Order to any filings related to the
§ 2255 motion.41 The extension does not apply to a properly-exhausted motion for
compassionate release.
AND NOW, this 3rd day of August 2020, upon consideration of Defendant’s Motion for
Permission to File a Motion for Relief from Judgment Pursuant to Rule 60(b)(4) [Doc. No. 547],
the government’s Response [Doc. No. 552], Defendant’s Reply [Doc. No. 554], Defendant’s

37 The Court notes that this is not a situation where an inmate requested compassionate release based on their
medical condition and then filed a motion based on COVID-19 amplifying the risk that their medical condition
poses to their health.
38 Doc. No. 550 at 15.
39 18 U.S.C. § 994(t).
40 U.S.S.G. § 1B1.13.
-41 Abdul-Akbar, 901 F.2d at 333. Because the last time that Rashid filed a document in Case No. 15-cv-274, which is
the § 2241 action, was in 2016, the Court will not extend the Order to that action.

8

Case 2:08-cr-00493-CMR Document 556 Filed 08/03/20 Page 9 of 10

Emergency Motion for Bail Pending Final Disposition of Habeas Proceedings, Or;, In The
Alternative, A Grant of Compassionate Release Pursuant to The First Step Act of 2018 [Doc. No.
550], the government’s Response [Doc. No. 553] and Defendant’s Reply [Doc. No. 555], it is
hereby ORDERED that:
1) Defendant’s Motion for Permission to File a Motion for Relief from Judgment
Pursuant to Rule 60(b)(4) [Doc. No. 547] is DENIED.
2) There is no probable cause to issue a certificate of appealability.42
3) The government’s request that the Court’s June 20, 2016 Order should be extended to
also bar any further litigation of Rashid’s § '2255 claims is GRANTED. Defendant is
enjoined from filing motions in Case No. 08-493 that seek to re-litigate issues related
to his criminal convictions that have been decided. Before filing a motion or other
document in Case No. 08-493, Defendant must seek leave of Court and must certify
that: (1) the claims he wishes to present are new claims never before raised and
disposed of on the merits by any federal court; (2) he believes the facts alleged in his
pleading to be true; and (3) he knows of no reason to believe his claims are foreclosed
by controlling law.
4) Any further actions taken by Defendant in violation of this Order, may result in a
Rule to Show Cause as to why he should not be held in contempt and face sanctions
and other penalties caused by his disregard for this Court’s rulings.

42 “To appeal the District Court’s disposition of the Fed.R.Civ.P. 60(b) motion, [Rashid] is required to obtain a
COA.” Hickman v. Cameron, 531 F. App’x 209, 211 (3d Cir. 2013) (citing Morris v. Horn, 187 F.3d 333, 341 (3d
Cir. 1999)). There is no basis for concluding that “reasonable jurists could debate whether... the [Rashid’s motion]
should have been resolved in a different manner or that the issues presented were adequate to deserve
encouragement to proceed further.” Slack v. McDaniel, 529 U.S. 473, 484 (2000) (internal citation omitted).

9

Case 2:08-cr-00493-CMR Document 55b Filed U8/U3/2U Page iu or id

5) Defendant’s Emergency Motion for Bail Pending Final Disposition of Habeas
Proceedings, Or, In The Alternative, A Grant of Compassionate Release Pursuant to
The First Step Act of 2018 [Doc. No. 550] is DENIED with prejudice, except as to
Rashid’s motion for compassionate release based on the COVID-19 pandemic which
is denied without prejudice to Rashid refiling only if he demonstrates that he has
exhausted his administrative remedies as to that request.

It is so ORDERED.
BY THE COURT:
/s/ Cynthia M. Rufe
CYNTHIA M. RUFE, J.

10

\

UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

No. 20-2995

UNITED STATES OF AMERICA
v.
AMIN A. RASHID,
Appellant
(District Court No.: 2-08-cr-00493-001)

SUR PETITION FOR REHEARING

Present: SMITH, Chief Judge, McKEE, AMBRO, CHAGARES, JORDAN,
HARDIMAN, GREENAWAY, JR., SHWARTZ, KRAUSE, RESTREPO, BIBAS,
PORTER, MATEY and PHIPPS, Circuit Judges

The petition for rehearing filed by appellant in the above-entitled case having been
submitted to the judges who participated in the decision of this Court and to all the other
available circuit judges of the circuit in regular active service, and no judge who
concurred in the decision having asked for rehearing, and a majority of the judges of the
circuit in regular service not having voted for rehearing, the petition for rehearing by the
panel and the Court en banc, is denied.

BY THE COURT,

s/ THOMAS L. AMBRO
Circuit Judge
Dated: February 9, 2021
Sb/cc: Amin A. Rashid
Vineet Gauri, Esq.

